No. ________

In the Supreme Court of the United States
KALEV MUTOND, in his individual capacity only,
Administrateur Generale, Agence Nationale de Renseignements,
Democratic Republic of the Congo,
and
ALEXIS THAMBWE MWAMBA, in his individual capacity only,
Ministre de la Justice, Garde des Sceaux et Droits Humains,
Democratic Republic of the Congo,
Petitioners,
v.
DARRYL LEWIS,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI

To the Honorable John G. Roberts Jr., Chief Justice of the United States and
Circuit Justice for the United States Court of Appeals for the District of Columbia
Circuit:
1.

Pursuant to Supreme Court Rule 13.5, petitioners Kalev Mutond and

Alexis Thambwe Mwamba respectfully request a 60-day extension of time, until
Friday, August 9, 2019, within which to file a petition for a writ of certiorari.1 The

1

The case captions in the district court and the court of appeals identify one of the
defendants in this action as “Alexis Tambwe Mwamba.” This application uses his
preferred spelling, “Thambwe.”
1

court of appeals issued its opinion on March 12, 2019. A copy of the opinion is
attached. This Court’s jurisdiction would be invoked under 28 U.S.C. § 1254(1).
2.

Absent an extension, a petition for a writ of certiorari would be due June

10, 2019. This application is being filed more than 10 days in advance of that date,
and no prior application has been made in this case.
3.

Petitioners here (defendants below) were, at all relevant times, high-

ranking officials of the Democratic Republic of the Congo (DRC). Petitioner Alexis
Thambwe Mwamba was the DRC’s Minister of Justice, and he is now a Senator.
Petitioner Kalev Mutond was the Director of the DRC’s National Intelligence Agency.
Respondent (plaintiff below) brought claims against petitioners in the U.S. District
Court for the District of Columbia, seeking compensatory and punitive damages
under the Torture Victim Protection Act of 1991 (“TVPA”), Pub. L. 102–256, 106 Stat.
73 (1992). The district court dismissed the suit based on lack of subject-matter
jurisdiction, holding that petitioners were entitled to foreign-official immunity under
the common law. Lewis v. Mutond, 258 F. Supp. 3d 168, 172 (D.D.C. 2017).
4.

On appeal, the U.S. Court of Appeals for the District of Columbia Circuit

vacated the district court’s decision dismissing the case for lack of subject-matter
jurisdiction and remanded it for further proceedings. Lewis v. Mutond, 918 F.3d 142
(D.C. Cir. 2019). In three separate opinions, the panel set forth two alternative
holdings, each of which was joined by two members of the court.
5.
law.

Judge Wilkins’s opinion analyzed the immunity issue under the common

The opinion assumed, but did not decide, that Section 66 of Restatement

2

(Second) of Foreign Relations Law of the United States (1965) “captures the contours
of common-law official immunity.” Id. at 146. Under Restatement § 66(f), a foreign
official is entitled to immunity where: (1) the actor was a “public minister, official, or
agent of the [foreign] state” at the time of the alleged acts; (2) the acts were
“performed in [the foreign official’s] official capacity”; and (3) “the effect of exercising
jurisdiction would be to enforce a rule of law against the state.” Restatement § 66(f).
6.

In applying the Restatement test, Judge Wilkins focused solely on the

third element, reasoning that petitioners “ha[d] not proffered anything to show that
Plaintiff seeks to draw on the DRC’s treasury or force the state to take specific action,
as would be the case if the judgment were enforceable against the state.” Lewis, 918
F.3d at 147. The opinion noted that petitioners were “being sued in their individual
capacities” and that Respondent “[was] not seeking compensation out of state funds.”
Id. In Judge Wilkins’s view, these facts were dispositive of the immunity analysis.
See id. (“In cases like this one, in which the plaintiff pursues an individual-capacity
claim seeking relief against an official in a personal capacity, exercising jurisdiction
does not enforce a rule against the foreign state.”).
7.

The implications of this reasoning are sweeping.

Judge Wilkins’s

approach, which applies to all foreign officials sued in the D.C. Circuit, would enable
a plaintiff to overcome immunity simply by suing a foreign official in his or her
individual capacity and seeking damages from personal, rather than state, funds—
even when it is undisputed that the alleged acts are official in nature.

3

8.

In an opinion concurring in the judgment, Judge Randolph questioned

two of the assumptions underlying Judge Wilkins’s analysis: first, that “the immunity
of the defendant foreign officials under the [TVPA] turns on ‘the common law’ ” and,
second, that Restatement § 66(f) “embodies the governing common law.” Id. at 148
(Randolph, J., concurring in the judgment). Instead, Judge Randolph looked to the
relationship between the TVPA and common-law foreign-official immunity,
concluding that “the common law must give way” because the TVPA “imposes liability
for actions that would render the foreign official eligible for immunity under the
Restatement.” Id. at 150.
9.

Judge Randolph’s opinion too is breathtaking in its scope. It completely

abrogates common-law foreign-official immunity in all TVPA cases brought in the
D.C. Circuit.

That view would permit lawsuits against high-ranking foreign

officials—such as the Minister of Justice and the Director of the National Intelligence
Agency here—to proceed based entirely on allegations that the foreign officials, acting
in their official capacities, violated the TVPA.
10.

Judge Srinivasan issued a concurring opinion “fully join[ing] Judge

Wilkins’s opinion.” Id. at 148 (Srinivasan, J., concurring). He also “agree[d] with the
portion of Judge Randolph’s concurrence in the judgment explaining that the [TVPA]
subjects foreign officials to liability for acts undertaken in an official capacity and
thus displaces any common-law, conduct-based immunity that might otherwise apply
in the context of claims under that Act.”

Id.

Thus, both of these conflicting

rationales—that the common law governs the immunity of foreign officials in TVPA

4

cases, and that it does not—received the support of two judges on the panel, and both
are binding law in the D.C. Circuit.
11.

The issues in this case are significant.

Left undisturbed, the D.C.

Circuit’s ruling would eviscerate immunity for foreign officials—either all foreign
officials sued in an individual capacity, under the reasoning of Judges Wilkins and
Srinivasan, or all foreign officials sued under the TVPA, under the reasoning of
Judges Randolph and Srinivasan. These opinions effectively render dead letter this
Court’s opinion in Samantar v. Yousuf, 560 U.S. 305 (2010)—which established that
foreign-official immunity is to be analyzed under the common law—and substantially
undermine the role of the State Department in making immunity determinations.
Moreover, by gutting immunity for foreign officials in U.S. courts, the opinions may
have the perverse effect of creating comparable exposure for U.S. officials in foreign
courts, as foreign governments may hesitate to grant U.S. officials greater protection
than the United States grants theirs.
12.

Petitioners respectfully request an extension of time to file a petition for

certiorari. A 60-day extension would allow counsel sufficient time to fully research
and analyze the issues presented, to coordinate with and prepare the petition for
filing. In addition, undersigned counsel has a number of other pending matters that
will interfere with counsel’s ability to file the petition on June 10, 2019.
13.

Respondent does not consent to this request.

5

Wherefore, petitioners respectfully request that an order be entered extending
the time to file a petition for a writ of certiorari to August 9, 2019.

May 24, 2019

Respectfully submitted,
/s/ Robert N. Weiner
Robert N. Weiner
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave. NW
Washington, DC 20001
(202) 942-5000
Robert.Weiner@arnoldporter.com
Counsel for Petitioners

6

